          Office of Inspector General




                                  July 27, 2005

                                  PRITHA N. MEHRA
                                  MANAGER, MARKETING TECHNOLOGY AND CHANNEL
                                  MANAGEMENT

                                  SUBJECT: Management Advisory – Mail Evaluation,
                                           Readability and Lookup INstrument (MERLIN)
                                           Internal User Satisfaction Survey
                                           (Report Number NO-MA-05-002)

                                  This report presents the results of our self-initiated internal
                                  user satisfaction survey of MERLIN (Project Number
                                  04YG038NO000). We will issue a global MERLIN report
                                  upon completion of the nationwide MERLIN site-specific
                                  reviews and this survey.

Results in Brief                  MERLIN survey respondents generally gave MERLIN a
                                  positive rating. Respondents indicated that MERLIN has
                                  improved the quality of the mail and mailers are treated in a
                                  fair and consistent manner. They believe MERLIN provides
                                  excellent barcode readability analysis for mailings and
                                  verifies more aspects of a mailing than the previous manual
                                  process.

                                  However, some respondents believe the process of
                                  verifying mailings is more time consuming than the previous
                                  manual process and MERLIN frequently requires
                                  maintenance to operate as designed. In addition, the
                                  survey responses showed that the training provided for
                                  MERLIN did not always cover interpreting reports or
                                  verifying mailings. Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




  1735 N Lynn St
  Arlington, VA 22209-2020
  (703) 248-2100
  Fax: (703) 248-2256
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                                      NO-MA-05-002
 Internal User Satisfaction Survey


                                  This survey is a feedback mechanism Postal Service
                                  managers can use to monitor and improve MERLIN internal
                                  user satisfaction. In addition, we are presenting survey
                                  responses for informational purposes only and, therefore,
                                  are making no recommendations.

                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxx

Background                        The Postal Service accepts and verifies business mailings
                                  through approximately 2,000 entry units nationwide that
                                  administer mailer permits and accept bulk business mail.
                                  These consist of business mail entry units (BMEUs) located
                                  at Postal Service facilities and detached mail units (DMUs)
                                  located at mailers’ facilities and staffed by Postal Service
                                  employees.

                                  At least 70 percent of the 206.1 billion mailpieces the Postal
                                  Service handled in fiscal year (FY) 2004 entered the
                                  mailstream through BMEUs. As shown in the chart below,
                                  business mailers accounted for about $35 billion
                                  (51 percent) of the Postal Service’s FY 2004 revenue.1

                                        Business Mail Revenue as Percentage of Total Revenues

                                                              FY 2004 TOTAL REVENUES
                                                                    $69.0 Billion




                                            $34.0                                           Total BME
                                                                                    $35.0   Other Sources




                                  The Postal Service discounts its postage rates for business
                                  mailers in exchange for preparing, barcoding, or sorting
1
    The Postal Service’s 2004 Annual Report and WebEIS.



                                                          2
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                                         NO-MA-05-002
 Internal User Satisfaction Survey


                                 their mail before delivering it to the Postal Service. The
                                 Postal Service bases these discounts on the estimated
                                 costs it avoids when mailers do work that their employees
                                 would otherwise perform. To verify that a mailing deserves
                                 the worksharing discounts claimed, the Postal Service
                                 verifies the quality of mail preparation, including the
                                 accuracy of size, weight, and piece count information.

                                 The MERLIN machine replaces most manual verifications
                                 with automated verifications of all large MERLIN-compatible
                                 mailings and regular periodic verification of small mailings.2
                                 Operationally, MERLIN machines determine whether
                                 individual mailings qualify for the discounts claimed by the
                                 mailer. The Postal Service has xxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxx deployed 1,203 machines3 to
                                 approximately 400 BMEUs and DMUs nationwide.

                                                             Illustration 1: MERLIN




                                 From September 2004 to March 2005, the Office of
                                 Inspector General (OIG) conducted eight site-specific
                                 reviews of MERLIN to determine whether BMEUs and
                                 associated DMUs were fully using MERLIN machines to
                                 verify business mailings and whether clerks were collecting
                                 additional revenue assessed by MERLIN. Some BMEU
                                 employees interviewed during these reviews indicated that
                                 MERLIN has not improved the quality of the mail and
                                 mailers are not always treated in a fair and consistent

2
  The Postal Service defines “large mailings” as those with 10,000 pieces or more and “small mailings” as those with
fewer than 10,000 pieces. A MERLIN-compatible mailpiece meets the MERLIN weight and size restrictions. Mailings
not compatible with MERLIN include parcels, newspapers, irregular Periodicals, international mail, and individual
pieces that exceed MERLIN weight and size restrictions. Polywrap or shrink-wrapped pieces may not be excluded
simply because they are wrapped.
3
  MERLIN Decision Analysis Reports Phases I and II, dated May 2000 and June 2001, respectively.



                                                         3
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                                NO-MA-05-002
 Internal User Satisfaction Survey


                              manner. In order to determine if these issues existed
                              nationwide, as well as assess overall user satisfaction with
                              MERLIN, we decided to conduct a survey.

Objective, Scope, and         Our objective was to assess internal user satisfaction with
Methodology                   MERLIN through a user satisfaction survey focusing on the
                              usefulness and accuracy of MERLIN.

                              We randomly surveyed 132 BMEUs that use MERLIN. The
                              survey covered all Postal Service areas and 64 of the
                              80 Postal Service districts. We mailed surveys on
                              December 13, 2004 (see Appendix A for details of the
                              sample selection methodology). We asked survey
                              participants to voluntarily complete a confidential
                              ten-question survey regarding their satisfaction with
                              MERLIN. Survey responses were analyzed and
                              summarized and the survey response rate is documented
                              below:

                                                            MERLIN SURVEY
                                     BMEU Personnel          Sent Out Received   Response Rate
                                     Managers                   64        55         86%
                                     Supervisors                77        53         69%
                                     Clerks and Technicians    1,161     662         57%
                                     Totals                    1,302     770         59%

                              We conducted this review in cooperation with the Postal
                              Service from September 2004 through July 2005, in
                              accordance with the President’s Council on Integrity and
                              Efficiency, Quality Standards for Inspections. We discussed
                              our conclusions with appropriate management officials and
                              included their comments where appropriate.

Prior Audit Coverage          From calendar years 2000 to 2005, the OIG conducted
                              11 reviews of MERLIN. The Government Accountability
                              Office conducted three reviews addressing business mail
                              verifications and Postal Service worksharing. For details on
                              prior audit coverage, see Appendix B.




                                                   4
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                                          NO-MA-05-002
 Internal User Satisfaction Survey




Overall, MERLIN is                Over sixty-eight percent of the survey respondents either
Useful for                        strongly agree or agree that MERLIN is useful for
Acceptance and                    acceptance and verification of mailings. A summary of the
Verification of                   most frequent comments can be found in Appendix C.
Mailings

                                      Overall, MERLIN Has Been Useful


                60%
                50%                                                                 Managers
                40%
                30%                                                                 Supervisors
                20%
                10%                                                                 Clerks & Techs
                 0%
                       Strongly     Agree     Neither   Disagree   Strongly
                        Agree                Agree or              Disagree
                                             Disagree




                  Breakout of Responses
                                    Managers Supervisors Clerks and Techs   Totals Percentage
                  Strongly Agree       22        22             137          181     23.8%
                  Agree                27        23             291          341     44.8%
                  Neither Agree or
                                        6         6             111           123     16.1%
                  Disagree
                  Disagree             0         1              70            71       9.3%
                  Strongly Disagree    0         1              45            46       6.0%
                  Totals               55        53             654           762     100.0%




                                                        5
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                                   NO-MA-05-002
 Internal User Satisfaction Survey




MERLIN Reports are               Nearly 81 percent of the survey respondents either strongly
Useful                           agree or agree that MERLIN reports provide useful
                                 information.

                                 MERLIN Reports Provide Useful Information

               70%
               60%
               50%                                                           Managers
               40%
                                                                             Supervisors
               30%
               20%                                                           Clerks & Techs
               10%
                0%
                      Strongly      Agree    Neither   Disagree   Strongly
                       Agree                Agree or              Disagree
                                            Disagree




               Breakout of Responses
                                  Managers Supervisors Clerks and Techs Totals Percentage
               Strongly Agree        19        17             142        178      23.5%
               Agree                 29        33             373        435      57.4%
               Neither Agree or
                                      6        3              76         85       11.2%
               Disagree
               Disagree              1         0              40         41        5.4%
               Strongly Disagree     0         0              19         19        2.5%
               Totals                55        53             650        758     100.0%




                                                       6
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                                  NO-MA-05-002
 Internal User Satisfaction Survey




MERLIN Reports are            Sixty-eight percent of the survey respondents either strongly
Accurate                      agree or agree that MERLIN reports provide accurate
                              information.

                              MERLIN Reports Provide Accurate Information

                 60%
                 50%
                 40%                                                        Managers
                 30%                                                        Supervisors
                 20%
                                                                            Clerks & Techs
                 10%
                  0%
                       Strongly   Agree    Neither   Disagree   Strongly
                        Agree             Agree or              Disagree
                                          Disagree




               Breakout of Responses
                                 Managers Supervisors Clerks and Techs Totals Percentage
               Strongly Agree       16        14             106        136      18.0%
               Agree                26        28             328        382      50.5%
               Neither Agree or
                                    10         9              80         99      13.1%
               Disagree
               Disagree              3         1              99        103      13.6%
               Strongly Disagree     0        1              35          36       4.8%
               Totals               55        53             648        756     100.0%




                                                     7
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                                     NO-MA-05-002
 Internal User Satisfaction Survey




MERLIN has not                   Over 71 percent of the survey respondents either strongly
Decreased the Time               disagree or disagree that MERLIN has decreased the time it
to Verify and Accept             takes to verify and accept mail.
Mail

                                     MERLIN Has Decreased the Tim e
                                       To Verify and Accept Mail


                50%
                40%
                                                                               Managers
                30%
                                                                               Supervisors
                20%
                10%                                                            Clerks & Techs
                 0%
                      Strongly     Agree     Neither   Disagree   Strongly
                       Agree                Agree or              Disagree
                                            Disagree




                 Breakout of Responses
                                   Managers Supervisors Clerks and Techs Totals Percentage
                 Strongly Agree        3         5              47         55      7.2%
                 Agree                 1         4              68         73      9.6%
                 Neither Agree or
                                       6         8              74
                 Disagree                                                  88     11.5%
                 Disagree             23        19             211        253     33.2%
                 Strongly Disagree    22        17             254        293     38.5%
                 Totals               55        53             654        762     100.0%




                                                       8
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                                   NO-MA-05-002
 Internal User Satisfaction Survey




MERLIN has                        Sixty-eight percent of the survey respondents either strongly
Increased Ability to              agree or agree that MERLIN has increased their ability to
Complete More                     complete more detailed verifications when compared with
Detailed Verifications            the previous manual process.

                                       MERLIN Has Increased Ability
                                   To Complete More Detailed Verification

                60%
                50%                                                          Managers
                40%
                30%                                                          Supervisors
                20%
                10%                                                          Clerks & Techs
                 0%
                       Strongly     Agree    Neither   Disagree   Strongly
                        Agree               Agree or              Disagree
                                            Disagree




                Breakout of Responses
                                  Managers Supervisors Clerks and Techs Totals Percentage
                Strongly Agree       16        14             106        136     18.0%
                Agree                26        28             328        382     50.5%
                Neither Agree or
                                     10         9              80        99      13.1%
                Disagree
                Disagree              3         1              99        103     13.6%
                Strongly Disagree     0         1              35        36       4.8%
                Totals               55        53             648        756     100.0%




                                                       9
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                                            NO-MA-05-002
 Internal User Satisfaction Survey




MERLIN Training was               Sixty-two percent of the survey respondents either strongly
Sufficient                        agree or agree that training provided the knowledge and
                                  skills necessary to use MERLIN.


                                Training Provided The Knowledge and
                                   Skills To Effectively Use MERLIN

         70%
         60%
         50%                                                                             Managers
         40%
         30%                                                                             Supervisors
         20%                                                                             Clerks & Techs
         10%
          0%
                Strongly        Agree       Neither Disagree Strongly    No
                 Agree                     Agree or          Disagree Training
                                           Disagree                   Received



               Breakout of Responses
                                           Managers Supervisors Clerks and Techs Totals Percentage
               Strongly Agree                 10        14              83        107     14.1%
               Agree                          36        26             303        365     48.2%
                                              6          6           109         121      16.0%
               Neither Agree or Disagree
               Disagree                       2         5            100         107      14.1%
               Strongly Disagree               0         1            43          44      5.8%
               Never Received Training        1         1             12          14      1.8%
               Totals                         55        53           650         758     100.0%




                                                             10
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                                          NO-MA-05-002
 Internal User Satisfaction Survey




Mailers are Treated               Seventy percent of the survey respondents either strongly
Fairly and                        agree or agree that mailers are treated fairly and
Consistently                      consistently; xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxx

                                 Mailers Are Treated Fairly and Consistently

               50%
               40%
                                                                                    Managers
               30%
                                                                                    Supervisors
               20%
                                                                                    Clerks & Techs
               10%
                0%
                      Strongly      Agree     Neither    Disagree   Strongly
                       Agree                 Agree or               Disagree
                                             Disagree




                  Breakout of Responses
                                    Managers Supervisors Clerks and Techs   Totals Percentage
                  Strongly Agree      23         23             135          181     23.8%
                  Agree               25         25             305          355     46.6%
                  Neither Agree or
                                       6         2              83           91      12.0%
                  Disagree
                  Disagree             1         1              71            73     9.6%
                  Strongly Disagree    0         2              59            61     8.0%
                  Totals              55         53             653          761    100.0%




                                                        11
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                                           NO-MA-05-002
 Internal User Satisfaction Survey




MERLIN Usage Varies           Responses from MERLIN users regarding MERLIN use
                              were mixed. Over 36 percent of survey respondents
                              believed that MERLIN is primarily used for large mailings
                              while nearly 44 percent of respondents indicated that
                              MERLIN is used according to usage requirements.

                                 MERLIN Is Primarily Utilized for Mailings
                                    With 10,000 or More Mailpieces

            40%
            30%                                                                      Managers
            20%                                                                      Supervisors
            10%                                                                      Clerks & Techs
             0%
                   Strongly     Agree    Neither Agree    Disagree    Strongly
                    Agree                 or Disagree                 Disagree




              Breakout of Responses
                                Managers Supervisors Clerks and Techs        Totals Percentage
              Strongly Agree       4          6              52                62      8.2%
              Agree               20         14             181               215     28.4%
              Neither Agree or
                                   9         12             127               148     19.6%
              Disagree
              Disagree            20         15             207               242     32.0%
              Strongly Disagree    2          6              81                89     11.8%
              Totals              55         53             648               756    100.0%




                                                     12
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                                     NO-MA-05-002
 Internal User Satisfaction Survey




Mailers’ Support of           Responses from MERLIN users regarding mailers’ support
MERLIN is Mixed               of MERLIN were also mixed. Although 34 percent of survey
                              respondents indicate they believe that mailers are more
                              supportive of MERLIN over the past year, 27 percent either
                              strongly disagree or disagree with this assertion.

                                Mailers Have Become More Supportive
                                     of MERLIN Over the Past Year

         50%
         40%                                                                      Managers
         30%
                                                                                  Supervisors
         20%
         10%                                                                      Clerks & Techs
          0%
                 Strongly     Agree     Neither Agree    Disagree   Strongly
                  Agree                  or Disagree                Disagree



               Breakdown of Responses
                                 Managers Supervisors Clerks and Techs Totals Percentage
               Strongly Agree       7          6             32          45      6.0%
               Agree                24        19             171        214      28.3%
               Neither Agree or
                                    14        14             263        291      38.5%
               Disagree
               Disagree             8         12             126        146      19.3%
               Strongly Disagree     2         2              56         60      7.9%
               Totals              55         53             648        756     100.0%




                                                    13
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                       NO-MA-05-002
 Internal User Satisfaction Survey




Suggestions for               We asked BMEU managers, supervisors, clerks, and
MERLIN                        technicians to provide suggestions on how to improve
Improvements                  MERLIN. The following is a list of the most common
                              suggestions:

                              •     Provide more frequent software updates (the newest
                                    addresses) on MERLIN.

                              •     Stop running flats on MERLIN since they jam and
                                    require at least two clerks to process.

                              •     Assign mechanics to work MERLIN on a full-time basis.

                              •     Improve MERLIN’s ability to run and analyze mailings
                                    faster.

                              •     Improve MERLIN’s feeder mechanism.

                              •     Improve accuracy reading on piece weight and postage
                                    meters.

                              •     Have MERLIN linked to PostalOne!

                              We appreciate the cooperation and courtesies provided by
                              your staff during the survey. If you have any questions, or
                              need additional information, please contact Robert J. Batta,
                              Director, Network Operations – Processing, or me at
                              (703) 248-2300.

                              /s/ Mary W. Demory

                              Mary W. Demory
                              Deputy Assistant Inspector General
                               for Core Operations

                              Attachments

                              CC:   Anita J. Bizzotto
                                    Susan M. Plonkey
                                    Robert J. Dvonch
                                    Steven R. Phelps




                                                  14
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                   NO-MA-05-002
 Internal User Satisfaction Survey


                      APPENDIX A. STATISTICAL SAMPLING

Purpose of the Sampling

One of the objectives of this survey was to assess various aspects of user satisfaction
and perception of MERLIN utility and effectiveness. In support of this objective, we
employed a cluster random sample based on MERLIN sites. We designed the sample
to allow statistical projection of the overall response to various questions and to allow
identification of sites where responses were noticeably less favorable than others.

Definition of the Survey Universe

The survey universe consists of 399 BMEUs with at least one MERLIN installed as of
November 17, 2003. We obtained the universe from the Postal Service’s Customer
Service Support department. We also determined the number of clerks/technicians at
each site, using information in the Employee Master Files database and updating it as
much as possible through conversations with BMEU personnel.

Sample Design and Modifications

We based the sample size of 132 sites on a simple random selection of sites with the
expectation that many sites would have only one manager and that each district would
have only one representative. We believed that this approach would provide a more
than adequate sample of clerks as we expected there would be several clerks at each
location selected. We also knew that we wanted to have sites from as many Postal
Service districts as feasible–within audit resource constraints–to achieve a sense of
audit “coverage.” Therefore, we did not reduce the number of sites to reflect the
likelihood of multiple clerk responses from a single site. We calculated the sample size
for a two-sided confidence interval at the 95 percent confidence level and +/- 7 percent
precision.

We made all selections for inclusion in the sample by using the “randbetween” function
in Microsoft Excel to assign random numbers to the items on the universe listing.

Results

There was a 31 and 43 percent non-response rate for the supervisor and
clerk/technician categories, respectively. We did not attempt any follow-up of
non-responses. For these reasons, we chose not to project the results. The results
reported are the totals for the actual respondents; we neither intend nor imply any
projection to the audit universe.




                                                  15
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                NO-MA-05-002
 Internal User Satisfaction Survey


                     APPENDIX B. PRIOR AUDIT COVERAGE

The OIG conducted 11 reviews regarding MERLIN from July 2000 to March 2005.

Mail Evaluation, Readability, and Lookup INstrument: Proof of Concept (Report
Number DA-AR-00-003, dated July 31, 2000). The audit reported that MERLIN
performance during the proof of concept test demonstrated potential as a valuable tool
for verifying and accepting business mail. However, the Postal Service needed to
improve performance in the areas of weight measurement accuracy, indicia recognition,
and address recognition and evaluation. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxx.

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxx

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                  16
Mail Evaluation, Readability and Lookup INstrument (MERLIN)        NO-MA-05-002
 Internal User Satisfaction Survey



xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxx xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxx

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx


                                                  17
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                  NO-MA-05-002
 Internal User Satisfaction Survey


xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxx

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxx

The GAO conducted three reviews addressing business mail acceptance and Postal
Service worksharing.

U.S. Postal Service: Stronger Mail Acceptance Controls Could Help Prevent Revenue
Losses (Report Number GAO/GGD-96-126, dated June 25, 1996). The audit objective
was to determine whether internal controls for accepting bulk business mailings
reasonably assured that the Postal Service granted discounts claimed by mailers only
when the mailers earned the discounts. The audit reported that business mail
verifications did not comply with Postal Service requirements. In addition, mailers could
resubmit rejected mailings and have them accepted without correcting the errors or
paying additional postage; acceptance clerks did not have the special equipment
needed to determine whether barcodes applied by mailers met the Postal Service’s
technical standards; and supervisory reviews and follow-up verifications often were not
done or not reported. Finally, the Postal Service did not have a mechanism for
identifying how much it cost them to accept improperly prepared mailings.

The Postal Service concurred with the findings and stated that initiatives underway
would address the report’s recommendations. These initiatives included testing and
deploying 260 Automated Barcode Evaluators and 187 Barcoding, Addressing,
Readability Quality Utilizing Electronic Systems Technology units to help acceptance
clerks evaluate barcoded mailpieces.

U.S. Postal Service: Changes Made to Improve Acceptance Controls for Business Mail
(Report Number GAO/GGD-00-31, dated November 9, 1999). The audit reported that



                                                  18
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                                        NO-MA-05-002
 Internal User Satisfaction Survey


the Postal Service had made changes similar to those GAO recommended in its
June 1996 report (see above) and that controls had improved overall. However, the
Postal Service lacked comprehensive information about how well its business mail
controls were working and could not ensure it was collecting all revenues due from
business mail operations. In addition, the Postal Inspection Service found that some
units were not doing required presort verifications4 and employees at some units
needed additional training.

U.S. Postal Service: A Primer on Postal Worksharing (Report Number GAO-03-927,
dated July 31, 2003). This is an informational report addressing what key activities are
included in Postal Service worksharing, the rationale for worksharing, and the legal
basis for establishing worksharing rates.




4
 GAO based their results on a random sample of 54 Postal Inspection Service audit reports from a universe of
183 reports issued from August 1998 to June 1999.



                                                        19
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                     NO-MA-05-002
 Internal User Satisfaction Survey


             APPENDIX C. SUMMARY OF THE MOST FREQUENT
               COMMENTS FROM SURVEY RESPONDENTS

MERLIN survey respondents were given the opportunity to state why they chose a
particular answer for each question. The purpose of analyzing these comments was to
determine whether they support answers given to survey questions and to identify any
systemic issues with MERLIN. Survey respondent comments were not substantiated
and are only presented for informational purposes.

The following is a summary of the most frequent comments received from MERLIN
survey respondents per question:

Overall, MERLIN has been useful for mail acceptance and verification.

Respondents agree that MERLIN has been an improvement to the acceptance and
verification process. Generally, respondents believe that MERLIN eliminates the
subjectivity of verifying mail and reads barcodes extremely well. However, some survey
respondents stated that the process of verifying mailings is time consuming and
MERLIN frequently requires maintenance to operate as designed.

MERLIN reports provide useful information.

Comments support that barcode readability and presort features are functioning as
intended and MERLIN reports are useful for assisting mailers with improving the quality
of their mail. However, some survey respondents indicated that the address recognition
report is not always accurate because the software tables that provide the latest
addresses are not updated in a timely manner.

MERLIN reports provide accurate information in determining whether mailings
qualify for discounts claimed.

Respondents’ comments indicate that MERLIN reports can be used to verify claimed
discounts; however, accuracy varies because of design flaws or features that are not
utilized. In addition, some survey respondents stated that the short paid meter, piece
count recognition, and weight reports are not always reliable because MERLIN’s feeder
mechanism jams.

MERLIN has decreased the time required to complete mail acceptance and
verification.

Respondents’ comments indicate that MERLIN has not decreased the time to process
mailings. Specifically, some respondents indicate that MERLIN requires additional
preparation time, the sample size to verify mail is too large, and processing flats is time
consuming.



                                                  20
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                   NO-MA-05-002
 Internal User Satisfaction Survey


xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

MERLIN has increased the Postal Service’s ability to complete more detailed
verification compared to the previous manual system.

Respondents’ comments indicate that MERLIN, when operating as designed, has
increased the Postal Service’s ability to complete more detailed verifications.
Specifically, survey respondents stated that MERLIN verifies more aspects of a mailing
than the previous manual process and is excellent for reading barcodes.

Training provided the knowledge and skills to effectively use MERLIN machines.

Respondents’ comments indicate the training provided the knowledge and skills to
effectively use MERLIN machines. Classroom training provided a foundation for
understanding MERLIN’s different components; however, some survey respondents
indicated that training did not always adequately cover interpreting reports or verifying
mailings. In addition, some survey respondents stated that on-the-job training provided
a more in-depth working knowledge of MERLIN. Furthermore, some survey
respondents stated they needed to be offered training for any updates to MERLIN.

Mailers are treated fairly/consistently with MERLIN.

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

Facilities primarily use MERLIN machines for the acceptance and verification of
mailings of 10,000 pieces or more.

Respondents’ comments show they are aware of the usage requirements for large and
small mailings; however they are actually processing more small mailings to increase
their BMEU’s processing numbers. In addition, smaller mailings are processed more
often because a particular facility may not accept many large mailings.

Mailers have become more supportive of MERLIN over the past year.

Respondents’ comments indicate that mailers accept MERLIN as a part of the
verification process; xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx



                                                  21
Mail Evaluation, Readability and Lookup INstrument (MERLIN)                    NO-MA-05-002
 Internal User Satisfaction Survey


xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx Some respondents also
indicated that mailers have concerns regarding the additional time it takes to verify their
mail.




                                                  22
Mail Evaluation, Readability and Lookup INstrument (MERLIN)   NO-MA-05-002
 Internal User Satisfaction Survey



                        APPENDIX D. MANAGEMENT’S COMMENTS




                                                  23
